BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for a Writ of
Certiorari of Colorado Department of Labor and
Employment, Division of Workers' Compensation v.
Dami Hospitality, LLC, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 14th day of November, 2019:
Gregory G. Garre
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004-1304
(202) 637-2207
gregory.garre@lw.com
Daniel T. Goodwin
Paige Orgel
Law Offices of Daniel T. Goodwin
10901 W. 120th Ave., Suite 350
Broomfield, CO 80021
(303) 763-1600
paigeorgel@DanielTGoodwin.com

Counsel for Respondent

Franklin Square

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

, 1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

, Washington, DC 20005

Philip J. Weiser
Attorney General
Eric R. Olson
Solicitor General
Counsel of Record
John T. Lee
Senior Assistant Attorney General
Emmy Ashmus Langley
Assistant Solicitor General
Office of the Colorado Attorney General
1300 Broadway, 10th Floor
Denver, Colorado 80203
(720) 508-6000
Eric. 0 lson@coag.gov

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 14, 2019.

0

Donna J . Woli
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

[seal]

(\~

/G/ , ?oJ c(
I

